<html>
<title> - STAKEHOLDERS' VIEWS ON THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION [NARA]</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




STAKEHOLDERS' VIEWS ON THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION 
                                 [NARA]

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

                           Serial No. 111-26

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
54-079 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      PATRICK T. McHENRY, North Carolina
CAROLYN B. MALONEY, New York         LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   JOHN L. MICA, Florida
    Columbia                         JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
                     Darryl Piggee, Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2009.....................................     1
Statement of:
    McDermott, Patrice, director, Openthegovernment.org; Meredith 
      Fuchs, general counsel, National Security Archives, George 
      Washington University; and Lee White, executive director, 
      National Coalition on History..............................    16
        Fuchs, Meredith..........................................    34
        McDermott, Patrice.......................................    16
        White, Lee...............................................    46
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Fuchs, Meredith, general counsel, National Security Archives, 
      George Washington University, prepared statement of........    36
    McDermott, Patrice, director, Openthegovernment.org, prepared 
      statement of...............................................    19
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........     9
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    12
    White, Lee, executive director, National Coalition on 
      History:
        Followup response........................................    59
        Prepared statement of....................................    48

 
STAKEHOLDERS' VIEWS ON THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION 
                                 [NARA]

                              ----------                              


                         THURSDAY, MAY 21, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, McHenry, Norton, Watson, and 
Westmoreland.
    Staff present: Darryl Piggee, staff director/counsel; 
Michelle Mitchell and Alissa Bonner, professional staff 
members; Jean Gosa, clerk; Ron Stroman, staff director, full 
committee; Carla Hultberg, chief clerk, full committee; Adam 
Hodge, deputy press secretary, full committee; John Cuaderes, 
minority deputy staff director; Adam Fromm, minority chief 
clerk and Member liaison; Howard Denis, minority senior 
counsel; and Jonathan Skladany, minority counsel.
    Mr. Clay. The hearing on Information Policy, Census, and 
National Archives will come to order.
    Good afternoon, and the subcommittee of the Oversight and 
Government Reform Committee will now come to order. Without 
objection, the Chair and ranking minority member will have 5 
minutes to make opening statements, followed by opening 
statements not to exceed 3 minutes by any other Member who 
seeks recognition. Without objection, Members and witnesses may 
have 5 legislative days to submit a written statement or 
extraneous material for the record.
    Welcome to today's oversight hearing entitled, 
``Stakeholders' Views on the National Archives and Records 
Administration [NARA]. The purpose of today's hearing is to 
examine issues that President Obama's administration should 
consider in selecting the next Archivist of the United States 
of America. We will consider several important topics, 
including NARA's strategic plan, the Freedom of Information 
Act, the Presidential Library Donation Act, the Office of 
Government Information Services Act, the collection and storage 
of historical records and the staffing of NARA facilities.
    The National Archives and Records Administration is the 
Nation's record keeper. Its stated mission is to serve American 
democracy by safeguarding and preserving the records of our 
Government. As we will hear from our witnesses today, the next 
Archivist must have the requisite knowledge and skills to 
fulfill this mission using 21st century tools. It is this 
subcommittee's hope that our hearing today will provide the 
President with some valuable information that he can use in 
selecting the next Archivist.
    Before we go to our witnesses, I would like to address the 
recent findings of NARA's Inspector General on the loss of 
records. The NARA Inspector General has repeated a serious 
security breach at the National Archives concerning certain 
Clinton administration documents. Chairman Towns has stated the 
committee's position on the matter, that the committee will do 
everything possible to protect the integrity of the FBI's 
criminal investigation while we fulfill our constitutional duty 
to investigate the compromised security protocols at the 
National Archives and work to prevent future incidents.
    The committee will hold briefings into this matter with 
NARA and the FBI so committee members can begin to understand 
the magnitude of the security breach and all the steps being 
taken to recover the lost information. It is my hope that we 
can work with the minority to accomplish this.
    Now, onto today's topic. I now yield to the distinguished 
ranking minority member, Mr. McHenry of North Carolina.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. McHenry. Thank you, Chairman Clay. Thank you for 
holding this hearing, especially in light of the recent reports 
we have out of the National Archives. I appreciate your 
leadership in working with the minority side of the aisle as 
well.
    The National Archives is an agency with extremely important 
functions, we all know that. The archiving of our Government's 
valuable records requires a methodical approach to guarantee 
the preservation of documents within continuing value to the 
American people. Some of these records contain highly sensitive 
information and these records must be secured to protect 
national security and personally identifiable information as 
well.
    The effectiveness of the Archives as protector of the 
records under its control is a piece of the national security 
puzzle. This is why I am so troubled by the pattern of careless 
handling of sensitive material by the Archives. This week, the 
Inspector General of the Archives described a potentially 
catastrophic loss of data to our committee staff. The Inspector 
General, with the assistance of the Justice Department and the 
Secret Service, is currently investigating the loss of a hard 
drive containing one terabyte of data derived from records from 
the Clinton Presidency that went missing from the Archives' 
College Park facility.
    A terabyte of data is approximately equivalent to several 
million books. We are trying to get an exact description of how 
many pages of text that would be, but it is certainly hundreds 
of millions of pages of data. Data on drives include more than 
100,000 Social Security numbers, contact information and home 
addresses for various Clinton administration officials, Secret 
Service and White House operating procedures, event logs, 
social gathering logs, political records and other highly 
sensitive information. The full extent of the contents of the 
drive is still being investigated. The IG characterized the 
violation as ``the greatest loss ever and troubling and 
amazing.''
    The IG described to us an environment at the College Park 
facility where hundreds of employees have access to sensitive 
data, where janitors, visitors, interns and others with no 
clearance are able to walk through areas where hard drives 
containing national security secrets are just lying around. In 
fact, Archives employees use the area where the hard drives 
were left out as a shortcut to the bathroom. Now, apparently 
another room is too warm and they have to keep the door open 
for cooling purposes, a bizarre enough story.
    This incident should be troubling if it weren't isolated. 
But it is even more alarming because of its part as a larger 
pattern. All you have to do is read the reports released by the 
IG over the last few years to see the loss of this hard drive 
as just the latest example of carelessness at the Archives. 
Archives employees were accidentally or intentionally throwing 
away original Bureau of Indian Affairs records so frequently 
that a rule was put in place that required security officers 
and janitors to check the trash before it was taken out. These 
records are irreplaceable, and they were being thrown in the 
trash by Archives employees and personnel.
    The failures of the Archives' security protocols are 
seemingly endless. In 2007, an annual inventory identified as 
missing approximately 559 pieces of equipment, including items 
with memory storage capabilities and the potential of storing 
sensitive personal identifying information on them. A report 
published in 2006 revealed that the CIA and other Federal 
agencies had to reclassify over 55,000 pages of records taken 
from the open shelves of the Archives.
    But we can't forget the incident in 2005, with former 
President Clinton advisor Sandy Berger, National Security 
Advisor, and he plead guilty to unlawfully removing documents 
from the Archives. Apparently he was stuffing them in his 
socks. There are proper protocols here, and this shouldn't be a 
partisan issue. Historians want access to these records to give 
an original account and an accurate account of American 
history. It is not simply a Clinton administration issue or a 
Bush administration issue. It is truly preserving our Nation's 
history.
    Yesterday the Partnership for Public Service and American 
University's Institute for the Study of Public Policy 
Implementation released their report of best and worst places 
to work in the Federal Government in 2009. Not surprisingly, 
the National Archives was one of the worst. It ranked 29 out of 
30 overall. Now, this is unfortunate. Not only are the 
employees unhappy, but we are not even protecting our Nation's 
history.
    In the categories of leadership supervisors and strategic 
management, the Archives ranked a paltry 22, 20 and 21 
respectively. This is unfortunate. We have to change the 
culture in the Archives and make sure that we protect our 
Nation's data. Acting Archivist Adrienne Thomas was invited to 
appear here today but she declined. Ms. Thomas decided that her 
presence at a ribbon cutting ceremony was of far greater 
importance.
    Mr. Chairman, I hope that we will be able to invite her in 
and have a hearing on that, or at the very least, the new 
Archivist that the President appointments.
    Now, back to Ms. Thomas, her failure to grasp the gravity 
of the situation is shocking. She certainly has something to 
explain. She has a lot of explaining to do here to Congress and 
the American people and her employees.
    And there are immediate questions that she needs to be here 
today to answer. Has an inventory been done to determine if any 
other records are missing? That is a very important question. 
And what immediate security measures have been taken to prevent 
further loss or theft?
    Given the pattern of mismanagement and careless at the 
National Archives, I look forward to working with Chairman Clay 
and the committee majority to schedule a hearing with Ms. 
Thomas as soon as possible. We have to give her the opportunity 
to account for the negligence within the Archives and account 
to Congress what we must do to fulfill our obligations to 
future generations.
    We are here today to discuss the qualifications that 
President Obama should be looking for in a new Archivist. It is 
clear that a replacement for Ms. Thomas can't come fast enough. 
The input of professionals from the Archives would be helpful, 
but there is not, unfortunately, a single representative from 
the Archives here today. And that is unfortunate.
    I thank the witnesses for being here. You are certainly 
experts in the field and we certainly appreciate that, for the 
record, in giving us guidelines going forward.
    Thank you, Chairman Clay, for your leadership and thank you 
for your hard work on this matter and the Census as well.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Clay. Thank you, Mr. McHenry, and you can be assured 
that the committee members will be briefed on everything that 
took place at NARA as well as we will eventually get the Acting 
Director here.
    Are there any other committee members that would like to 
make an opening statement? Ms. Watson of California, you are 
recognized for 3 minutes.
    Ms. Watson. Thank you so much, Mr. Chairman, for holding 
today's hearing to bring together various stakeholders to share 
their views on the issues that are of particular concern as the 
Obama administration selects a new Archivist of the United 
States to lead the National Archives and Records 
Administration.
    As the guardian of the historical record of the United 
States, it is imperative that the NARA is run effectively and 
innovatively to protect our Nation's civic narrative for 
current and future generations of inquisitive Americans who 
seek greater understanding of who we are. Finding a new 
Archivist who advocates for transparency, who understands and 
who anticipates the challenges that the NARA may face, and who 
possesses the expertise to implement technology which can 
expedite access to our Nation's records are all critical to 
guaranteeing the NARA is capable of protecting the integrity of 
our national records.
    The next Archivist of the United States must ensure that 
the NARA is equipped with an effective and consistent system 
for electronic records management. And we do hope that the 
Obama administration may have as its legacy an accurate record 
of America's policies, activities and a bit of its history.
    An effective electronic records management system, which 
can process this massive backlog, should also possess the 
ability to assist in the declassification of eligible Federal 
and Presidential records. With approximately 400 million pages 
of valuable documents frozen in a system which grows by 25 
million pages per year, it is critically important that the 
next Archivist takes a proactive approach to modernizing this 
system so that Americans can have timely access to the 
documents which bring context to our national experience.
    I would like all of today's witnesses, I would like to 
thank them for appearing before this committee and their 
testimony will provide invaluable insight into the criteria the 
Obama administration should consider in selecting a new 
Archivist of the United States.
    Thank you so much, Mr. Chairman. I yield back.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Ms. Watson, for the opening statement.
    If there are no additional opening statements, Mr. 
Westmoreland has indicated to me he does not have one, the 
subcommittee will now receive testimony from the witnesses 
before us today.
    I want to start by introducing our panel. Our first witness 
is Dr. Patrice McDermott, director of OpenTheGovernment.org. 
Our next witness is Ms. Meredith Fuchs, and she is the General 
Counsel for the National Security archives. And our final 
witness will be Mr. Lee White, executive director of the 
National Coalition on History.
    Welcome to all three. As a note, before we begin, two 
witnesses scheduled today were unable to attend. They are 
Acting Archivist Adrienne Thomas and Dr. Thomas C. Battle, from 
Howard University, who represents the Society of American 
Archivists.
    I thank all of our witnesses for appearing today and look 
forward to their testimony. It is the policy of the Oversight 
Committee to swear in our witnesses before they testify. Would 
you all please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative. You may be seated. And I ask that 
each of the witnesses now give a brief summary of their 
testimony. Please limit your summary to 5 minutes and the 
little light on the desk will indicate when your 5 minutes is 
up. Your complete written statement will be included in the 
hearing record.
    Ms. McDermott, please begin with your opening statement.

          STATEMENTS OF PATRICE McDERMOTT, DIRECTOR, 
    OPENTHEGOVERNMENT.ORG; MEREDITH FUCHS, GENERAL COUNSEL, 
 NATIONAL SECURITY ARCHIVES, GEORGE WASHINGTON UNIVERSITY; AND 
  LEE WHITE, EXECUTIVE DIRECTOR, NATIONAL COALITION ON HISTORY

                 STATEMENT OF PATRICE McDERMOTT

    Ms. McDermott. Thank you, Chairman Clay, Mr. McHenry and 
members of the subcommittee, for the opportunity to speak today 
on the issues that the Obama administration should consider in 
selecting the next Archivist of the United States.
    My name is Patrice McDermott, and I am director of 
OpenTheGovernment.org, a coalition of more than 70 consumer and 
good government groups, library associations, journalists, 
environmentalists, labor organizations and others united to 
make the Federal Government a more open place in order to 
strengthen public trust in Government, make us safer and 
support our democratic principles.
    One of my former colleague who recently retired from NARA 
said, ``I believe in NARA--as an ideal.'' I think that is where 
those of us on this panel and our colleagues in the public 
interest community stand as well. We do this because NARA is 
probably the only agency in the executive branch that has, and 
is seen by the public to have, access to Government information 
as its primary mission.
    NARA has primarily understood its mission to encompass 
information that, for a variety of reasons, is historically 
significant. This understanding of its mission is reflected in 
its leadership and its staff. While the employees of NARA are 
dedicated civil servants, and there are many talented 
individuals working there, the agency does have a tendency to 
be inward-looking and focused on the past. The perception of 
NARA is that it is primarily reactive, not proactive. And we 
know that NARA has preferred to take a collegial, rather than a 
leadership stance, with the agencies and within the Government 
overall.
    The critical position of NARA in both the life cycle 
management of the records of our Federal Government and the 
mounting challenges the Government faces in this area 
necessitate that the culture and stance of NARA change. NARA is 
increasingly being asked to take on new challenges and is 
looked to as a site to locate new initiatives and offices 
pertaining to public access to contemporaneous Government 
information. These include the Office of Government Information 
Services, created by the Open Government Act, an office that 
will have responsibility for implementing the memorandum on 
designation and sharing of controlled, unclassified 
information, better known as sensitive but unclassified 
information.
    Moreover, NARA has another primary mission that receives an 
insufficient amount of the agency's attention and resources: 
records administration. Many of us in the public access 
community are deeply concerned about how NARA is addressing its 
responsibility for records management and provision of access 
to the records of our Nation. This is especially true for e-
records.
    NARA's 2006 to 2016 Strategic Plan is indicative of the 
reasons for our concerns. It has a total of 1.5 pages on 
records administration and one vague strategy for electronic 
records management. That is accompanied by a strategy on 
physical records storage.
    Indeed, the strong and evident focus on the Strategic Plan 
is on the Archives portion of NARA's mission, the first A, 
combined with an emphasis on civic education and exhibits. The 
perception reinforced by conversations with current and former 
NARA staff is that the agency increasingly understands itself 
as a museum.
    The former Archivist, Dr. Weinstein, moved the agency in 
some good directions with the use of technology. NARA's use of 
technology, though, appears to be focused on, again, making 
NARA a museum, rather than a lead agency on life cycle 
management of records for public access. Recent history shows, 
however, that we need an Archivist who has a proven record of 
standing up for open government. Dr. Weinstein took good 
positions on open government when crises arose, but did not put 
the agency in a leadership stance.
    That is an approach we can no longer afford. We need an 
Archivist who understands NARA is not just a museum of 
historical documents, but is a steward responsible for securing 
the integrity of Government records. He or she must be able to 
lead NARA to embrace the role of catalyst for the information 
revolution and enunciate clear, consistent and practical 
electronic record policies.
    More important, most importantly, we need an Archivist that 
will lead the Government to meet the new challenges of managing 
and preserving electronic records, including emails. Records 
management must not be about cleaning up messes after they 
occur, but taking the proactive steps necessary to prevent the 
loss of our documentary record.
    The new Archivist needs to be a visionary in terms of the 
importance and public use of Government records in all forms 
and formats and throughout their life cycle, and so needs to 
have a strong familiarity with technology as a tool. She or he 
also needs to be someone who understands and appreciates 
records management, again, throughout the life cycle, not just 
of records that will be archived.
    The public and the Government need an Archivist who can 
provide vision and leadership for the Federal Government and 
foster successful partnerships with history and access 
professionals inside and outside Government. The key 
qualification is his or her commitment to maintaining the 
record of our national Government and meeting the mandates of 
law.
    Because the next Archivist will have so many challenges--am 
I out of time? I have one more page. We recommend that a second 
tier political appointee be created to serve a chief of staff 
type position and to manage and enliven the bureaucracy at 
NARA. This would free the Archivist to assume the needed 
leadership role and might attract candidates who have the 
vision to move the agency and to assist the President in moving 
forward.
    The new Archivist and this second person should give the 
CUI office and the Office of Government Information services 
the support and independence that the Information Security 
Oversight has. For OGIS, this independence is particularly 
important, because OGIS must also oversee NARA's own 
significant involvement with FOIA.
    In order for President Obama's day one promises on 
transparency to have any meaningful impact, immediate steps 
must be taken to protect the integrity of Government records 
throughout their life cycle, from creation to permanent 
preservation or authorized destruction.
    Thank you for the opportunity to speak on these important 
issues. I am happy to answer any questions you might have.
    [The prepared statement of Ms. McDermott follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Ms. McDermott.
    Ms. Fuchs, you may proceed.

                  STATEMENT OF MEREDITH FUCHS

    Ms. Fuchs. Thank you. Chairman Clay, members of the 
subcommittee, thank you for inviting me to testify today about 
the National Archives and Records Administration. I have 
submitted a written statement that details my organization's 
experience with NARA, so you will be happy to know I am going 
to only focus on a few points right now.
    We understand that the White House is actively currently 
assessing candidates for the office of Archivist of the United 
States. I am hopeful that the members of this subcommittee will 
let the White House know that the next Archivist must be 
someone who is eager to confront the challenges that are facing 
NARA and should be someone who has the authority and the 
management skills to have a significant impact.
    I want to preface my remarks to say that my organization 
works very regularly with NARA officials and we strongly 
support their mission. In the years that I have focused on 
information policy, NARA officials have always taken our 
concerns seriously. They have always been responsive when we 
have called upon them. But our experience is that NARA has 
failed to take leadership amongst Government agencies in the 
area where it has unique expertise, and in my view, 
responsibility.
    My written submission describes the divergence between a 
view of NARA primarily as a museum of the past and a view of 
NARA as a critical component in our Government's overall 
information policy. From the outside, to us, NARA often seems 
to act like a disengaged bureaucrat, mechanically doing its 
work, when it should be leading change. Right now, NARA has the 
opportunity to lead the change that President Obama has called 
for in his transparency directives.
    We believe NARA can only fulfill this mission, however, if 
it starts its work long before the boxes of old documents make 
their way to NARA's warehouses. I am going to highlight four 
critical areas that I think will require the Archivist's 
immediate attention.
    The first is electronic records management and the records 
life cycle. If there is one knowledge base that the new 
Archivist should have, it is of electronic records and records 
life cycle management. NARA must solve the problem of long-term 
storage and preservation and on that front, I urge this 
committee to inquire of NARA into the functioning of the 
electronic records archives.
    But NARA also must lead the charge in getting the Federal 
agencies to learn how to manage their records. Agencies have a 
legal obligation to preserve records of historical 
significance. They must have their records disposition 
schedules approved by NARA, but we know of very few instances 
where NARA has taken strong action to enforce the law.
    The second issue is classified records. I believe most 
people at NARA would agree with me that the classified and 
declassified records process is inefficient, time-consuming and 
ineffective. I am not going to spend much time on it, but I 
would say that we strongly support the establishment of a well-
funded national declassification and historical records center 
at NARA that will make the growing volume of currently 
inaccessible records available to the public. The new Archivist 
should spearhead efforts to gain agency cooperation and advance 
the necessary legislative changes to make this a reality and 
quickly.
    The third area is Presidential records and Presidential 
libraries. NARA's effectiveness at preserving Presidential 
records is an area of grave concern. The Oversight Committee 
has heard over many years about mismanagement of Presidential 
records and problems with the Presidential library system. I am 
not going to revisit all of those details today, but I do think 
that NARA at least does appear to view itself as powerless to 
oversee Presidential recordkeeping. This is their view even in 
the case of legitimate concerns that records may be missing or 
destroyed.
    It also is faced with tremendous challenges regarding the 
Presidential library system. NARA is currently undergoing a 
process to assess alternative models for Presidential 
libraries. I urge this committee to inquire of NARA on the 
details of its process and to ensure that they are considering 
all alternative models in that process.
    Finally, I am going to highlight my fourth concern, which 
is the issue of access. I urge the next Archivist to be someone 
who can view access through the lens of President Obama's 
January 21st, Open Government memorandum. He or she should have 
a vision for Archives 2.0, so that they can serve a new 
generation of researchers.
    So what does this all mean for the selection of the new 
Archivist? The person who is chosen must be someone who doesn't 
only care about history, but also understands what is coming in 
the future. They have to understand the promise of technology 
and frankly, they should be someone who has some experience 
implementing technology for preservation and access. Moreover, 
they must view NARA not just as a museum of the past, but as a 
resource to serve the needs of our people today and in the 
future. Instead of looking at the new responsibilities that 
Congress has been placing on NARA as an interference in their 
mission, they should view these as opportunities to help 
agencies do a better job at preserving records.
    The next Archivist also must be a skilled diplomat and a 
manager who can motivate and lead. I was sad to read that NARA 
had been listed as one of the least favorable places to work in 
the Federal Government, because most of the people I know who 
work there are working there because they care about the 
mission. They should also have the benefit of having a good 
work environment.
    Finally, and for my organization, this is most essential, 
the Archivist must be an unwavering advocate of transparency 
and access. They should understand in their core that the 
National Archives exists to advance our democracy and it can 
only do so if the Government creates, preserves and permits the 
public to see records of its activities and its policies.
    Thank you again for the opportunity to speak to you. I will 
be happy to respond to questions.
    [The prepared statement of Ms. Fuchs follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Ms. Fuchs, for your statement.
    Mr. White, you may make an opening statement.

                     STATEMENT OF LEE WHITE

    Mr. White. I can assure you, my testimony is 5 minutes and 
22 seconds. [Laughter.]
    Chairman Clay----
    Mr. Clay. We are keeping score. [Laughter.]
    Mr. White. Well, start now.
    Chairman Clay and members of the subcommittee, I am Lee 
White, the executive director of the National Coalition for 
History. The Coalition is a consortium of over 60 organizations 
that advocates and educates on Federal legislative and 
regulatory issues affecting historians, archivists, political 
scientists, teachers and other public stakeholders. Thank you 
for the opportunity to discuss the major issues we see facing 
the new Archivist of the United States.
    Let me add to your comments by saying NARA's apparent loss 
of Clinton-era electronic records is inexcusable. The 
mismanagement of these sensitive records exemplifies the urgent 
need for systemic change throughout the agency. It also shows 
why the Obama administration must move quickly to nominate a 
new Archivist with the management skills needed to address the 
serious problems plaguing the agency.
    Here is just a brief summary of the key issue I addressed 
in my written testimony and the ones most pressing we see 
facing the new Archivist of the United States.
    First, resources. Any consideration of the issues facing 
the National Archives must begin with a discussion of 
resources, both financial and human. For too long, the Congress 
and various administrations have given NARA additional 
responsibilities without a commensurate increase in funding. 
The top priority for the new Archivist should be to address the 
growing processing backlog. Congress should give NARA the 
financial resources necessary to not only process the existing 
backlogs of historical materials, but also to keep up with the 
exponential increase of new records.
    With regard to human resources, NARA is facing the 
retirement of a large percentage of its work force. The agency 
must employ and train an entire new generation of archival 
professionals. As everyone else has stated, I am disappointed 
that the National Archives finished 29th out of 30 Federal 
agencies in measuring employees' job satisfaction. The first 
challenge the new Archivist will face is improving NARA's 
organizational culture and restoring morale at the agency.
    Second, the Archivist should ensure the creation and 
preservation of Federal and Presidential records. The Archivist 
of the United States will need both the full backing of the 
President as well as vigilant congressional oversight to ensure 
that all branches of the Government adhere to the legal 
requirements of the Federal Records and Presidential Records 
Act.
    Third, reform the Presidential library system. Last fall, 
Congress directed NARA to prepare a report due this summer that 
suggests alternative models for the Presidential library 
system. We all, I think, agree that the Presidential library 
system is broken and reforming the operations, maintenance and 
funding of the library should be a top priority for the new 
Archivist.
    Fourth, a complete deployment of a new system for 
preserving electronic records. The long-delayed Electronic 
Records Archive is an essential tool for the NARA of today and 
tomorrow. Mandatory use of the ERA by all Federal agencies is 
currently scheduled to begin in January 2011. The new Archivist 
must ensure that the ERA meets that deadline.
    Fifth, pursue efficient declassification and open access to 
public information. Over-classification of Government 
information not only denies or delays public access to records, 
but also squanders resources by adding to the backlog of 
records that need to go through the convoluted declassification 
process.
    The Archivist should play a key role within the 
administration in the development of the forthcoming 
Government-wide controlled unclassified information policy. The 
new Archivist should also advocate within the administration 
for the establishment of a national declassification center at 
NARA, which we were disappointed to see was not included in the 
President's fiscal year 2010 budget request.
    Sixth, improve citizens' access to Government records. NARA 
must expand online access to finding aids and digitized 
portions of its collections, as well as maintain extended 
research hours so that stakeholders can access materials that 
are only available at NARA facilities.
    Seventh, expand NARA's educational and outreach activities. 
The records and artifacts entrusted to NARA's stewardship are 
truly national treasures. To improve historical and civic 
literacy, NARA should continue to expand its excellent 
educational and public programs.
    And finally, Mr. Chairman, this is something that is dear 
to your heart, the National Historical Publications and Records 
Commission. The History Coalition strongly supports the grants 
program of the NHPRC. We urge the administration and the new 
Archivist to work with you, Chairman Clay, toward the passage 
of the legislation you introduce to reauthorize the NHPRC at an 
annual level of $20 million per year for fiscal years 2010 
through 2014.
    Thank you again, Mr. Chairman, and I will be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. White follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Mr. White.
    And now we will move to the question period for Members 
under the 5-minute rule. I will go in a different order and 
recognize the gentlewoman from California, Ms. Watson, for 5 
minutes.
    Ms. Watson. Thank you so much, Mr. Chairman.
    The Open Government Act of 2007 created the Office of 
Government Information Services within the NARA to review the 
records management procedures of agencies and to improve the 
application of the Freedom of Information Act by serving as an 
impartial mediator toward requestors and agencies. However, 
experts have argued that the OGIS has never been adequately 
funded and Allen Weinstein, the previous Archivist of the 
United States, contended that these responsibilities should not 
be the NARA's, but within the sole jurisdiction of the Justice 
Department.
    So I ask any of you that would like to respond, if you 
think the Department of Justice is the appropriate agency for 
resolving the Freedom of Information Act disputes, and what 
kind of increases do you think the NARA would need to 
sufficiently fulfill the statutory responsibilities of the 
OGIS. Let me just go down the line.
    Ms. Fuchs. Sure, I would be happy to respond. I think that 
it is without question that NARA did not welcome the idea of 
OGIS being placed there, although I do believe that now that 
OGIS is going to be NARA, they are sort of stuck with it, and I 
am hopeful that they are going to take it seriously.
    There is no question that the Justice Department is not an 
appropriate place to have a mediator of FOIA disputes. We have 
long experience dealing with the Justice Department. They are 
very professional, but they defend the Government, so there is 
an inherent conflict of interest in them playing that role.
    We are very concerned that it has taken so long to see the 
appointment of a Director of the Office of Government 
Information Services. I understand that appointment is eminent. 
I think that is going to be a significant test on whether they 
are seriously taking the responsibility to act in that role as 
a mediator. Because that person can make a tremendous 
difference in terms of the openness of Government. But if the 
person who they hire to startup that office is not someone who 
comes with a vision and a desire to make a difference, well, 
then, it is just wasted money.
    Ms. Watson. Thank you.
    Ms. McDermott.
    Ms. McDermott. Yes, thank you. I agree completely with 
Meredith. The placement of the Office of Government Information 
Services was thought through very hard among ourselves and with 
people on the Hill. And while we know that NARA was not pleased 
to have it, partly because it was initially unfunded, we do 
think that is the best place for it, and the Justice 
Department, for the reasons that Ms. Fuchs gave, is not it.
    In terms of how many resources they need, I think that is 
probably something that the NARA folks and the new Director of 
the Office, when he or she is hired, are best going to be 
placed to recommend. We are concerned, though, that enough 
money be allocated for the office that they are not dependent 
on detailees from the Justice Department who are good and 
decent civil servants, but they bring with them, they would 
bring with them their Department of Justice frame of mind. We 
want a new look at these cases and at these issues.
    I would also ask that this office oversee or take a look, 
anyway, at how NARA, at how the FOIA is being implemented 
Government-wide. I think that is going to be a very important 
job. DOJ has responsibility for giving guidance, but nobody 
has, in the executive branch, has responsibility for ensuring 
that the agencies Government-wide are actually complying with 
the law. So we are very hopeful, we are anxious to see who is 
named, and we will work with them and try to get them the 
necessary funding.
    Ms. Watson. Thank you.
    And Mr. White, I have a question for you. I am sure you 
concur with what has been said previously.
    Mr. White. Yes.
    Ms. Watson. In one of his first acts, President Obama 
released a memorandum on transparency and open Government and 
issued Executive Order 13489, which revoked President Bush's 
Executive Order 13233, which placed limits on access to 
Presidential records.
    So what would you say the record of implementation has been 
thus far in terms of the Obama administration applying a 
presumptive openness? And what other actions would you 
recommend the President take to increase transparency and 
accountability in the executive branch?
    Mr. White. Well, I have to say that the day that the 
President issued that Executive order was one of the happiest 
days of my professional life. [Laughter.]
    I have been working on it for quite a long time.
    I think it is too soon to tell. I know that right after the 
President issued the Executive order, some records were 
released, I believe, from the Reagan Library. I think what is 
still needed, however, is there is legislation pending in the 
Senate that passed here in the House, H.R. 35, the Presidential 
Records Reform Act, that needs to be passed. We need to get the 
changes that the administration made put into law, enacted, 
codified, so that the Presidential Records Act is not left to 
the whim of any President, each President that comes in. Once 
it is codified, it is going to be harder for them to manipulate 
the Presidential Records Act to their own uses.
    So I would say, getting the Senate to pass that bill and 
sending it back over here if there are any changes, I know that 
President Obama has already committed himself to signing the 
bill. So you need to get your colleagues on the other side of 
the Hill to start moving.
    Ms. Watson. We will be waiting for it.
    I will yield back to you, Mr. Chairman. I do have some 
other questions.
    Mr. Clay. We will do a second round. Thank you, Ms. Watson.
    Mr. Westmoreland, you are recognized for 5 minutes.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Ms. Fuchs, you are an advocate of, or against over-
classification, I guess. And I know that in the past, there has 
been some things that were released and then later on 
reclassified, I guess, by the CIA or another agency.
    How often are documents released by the Archives that are 
subsequently reclassified?
    Ms. Fuchs. A couple of years ago, there was a very 
significant incident that my organization played a role in 
covering where there was significant reclassification going on 
at the National Archives. As a result of that, an audit was 
done and it was found that most of those reclassifications were 
either inappropriate or, even if technically legitimate under 
the Executive order, were questionable. So there had been a lot 
of unnecessary reclassification, but there was certainly some 
core that was properly apparently reclassified.
    My understanding is that since that time, new procedures 
were put in at the National Archives and there have been very, 
very few reclassifications. In fact, I just looked at this 
number a couple of days ago, and I think within the last year 
or two, there may have been zero, and the year before that, 
there were a couple of pages or a couple of documents.
    There is a serious question, when you are talking about 
reclassifying, what was the reason that the thing was 
mistakenly classified, it is already publicly known, and is 
there actually going to be harm that requires reclassification. 
Because reclassifying itself can lead to harm. These are 
questions which I do believe that the National Archives, in 
response to the scandal, has been much more professional in 
handling.
    Mr. Westmoreland. I know that in 2006, there was a report 
published, and I don't know who that was by, that said there 
were 55,000 pages. So if there were 55,000 pages reclassified, 
and you are saying there was none in the last 2 years, it must 
be doing a better job of it.
    Ms. Fuchs. That report was in response to the fact that we 
had uncovered this massive reclassification effort, and that is 
indeed what the information security oversight was to.
    Mr. Westmoreland. Do you know how many of those 55,000 
pages were then unclassified?
    Ms. Fuchs. I don't know whether they were then 
unclassified.
    Mr. Westmoreland. That is fine.
    Ms. McDermott. If I may, I think it is important to note, 
too, that it was not NARA that declassified these materials. 
NARA cannot declassify other agencies' documents. They were 
materials that were, that various agencies, the CIA and other 
agencies, had interest in. One of them had declassified it and 
other agencies were unhappy when they discovered that CIA was 
unhappy, for instance, when they discovered the State 
Department might have declassified something that they didn't 
want.
    But these were in NARA's safekeeping, and it happened on 
NARA's property. But it was not NARA that declassified the 
information, inappropriately or not.
    Mr. Westmoreland. And I think that is a good point, Ms. 
McDermott. I guess the rush to declassify, maybe that process 
needs to be slowed down, that each one of the agencies has an 
opportunity to look at it before it is put into the 
unclassified.
    Ms. Fuchs. If I could just comment on that briefly, I think 
you are absolutely correct that there needs to be a much better 
process for declassifying. But I don't think that means that we 
should stop declassifying. What I think that means is we should 
pursue something that NARA has in fact initiated, but on a much 
larger scale, which is the National Declassification Center, 
where every agency would be there, and every agency would play 
a role, and so we could make sure that we are not spending 
taxpayer money protecting old secrets that are no longer 
important, and instead we are actually protecting things that 
are really sensitive today.
    Mr. Westmoreland. OK. I am going to have make the questions 
shorter, and we are going to have to make the answers shorter.
    The National Security Archive, they rely heavily on the 
Freedom of Information Act to acquire materials. How long do 
you think is a, or how would you evaluate agencies' 
responsiveness to the Freedom of Information Act request for 
the National Security Archive to get this information?
    Ms. Fuchs. I would say we see a wide range of practice at 
agencies. Some agencies are far more professional. When 
material is classified, it causes a delay in the review and 
release of information. We have seen some improvement in the 
last couple of years in terms of customer service at agencies, 
but we have not seen significant improvements in terms of the 
speed with which records, or with which they are responding to 
FOIA requests that we have filed.
    Mr. Westmoreland. Average time, would you say, if you are 
asking for something to go through the process to see if it is 
classified, non-classified or whatever, what is it? Two years? 
Three months? Four days?
    Ms. Fuchs. Nothing that we request has ever been provided 
in 4 days. [Laughter.]
    Although I would say that if it is classified, we would be 
looking at several months to several years, and at some 
agencies, many years.
    Mr. Westmoreland. Can I just have one little followup, and 
I won't have a second round?
    Mr. Clay. Sure.
    Mr. Westmoreland. And this is for Ms. Fuchs, too. As you 
know, I guess in January there was a report, or the Pentagon 
said there was a report about the detainees in Guantanamo Bay, 
in the fact that of the 534 prisoners, about 1 out of 7 had 
been either gone back into militant activity with the Taliban 
or whatever. They said in January they were going to release 
it.
    Well, as you may know, as of today they have not released 
it. But yet, the New York Times reported on the story of the 
Pentagon and actually gave the exact numbers of the ones that 
had returned to flight.
    If you had requested a report from the Pentagon under the 
Freedom of Information Act, and Pentagon officials promised to 
release it promptly, would you be upset that the Pentagon 
dragged its feet on what you had asked and then leaked it to 
the New York Times? [Laughter.]
    Ms. Fuchs. Well, that is a good question. I think the 
Freedom of Information Act is not always administered as 
professionally as I would like. It is the appropriate way for 
members of the public, like my organization, to ask for 
information from Government agencies.
    I can't really speak to the leak, because I don't know who 
leaked it. But I certainly think that there is a process that 
should be followed when folks like us ask. In this instance, I 
gather, maybe it wasn't.
    Mr. Westmoreland. It sounds like to me, though, that I 
guess the Freedom of Information Act that they submitted 
counted more than getting the information to the public, as was 
promised in January.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Clay. Thank you, Mr. Westmoreland. Thanks for those 
questions, too.
    A panel-wide question. What are some of the deficiencies in 
the Presidential library system that you believe must be 
addressed by the next Archivist? Let's start with Mr. White.
    Mr. White. Well, it is funny you should ask, because about 
a week ago, or 2 weeks ago, we submitted, as you know, Congress 
asked the National Archives to prepare a report to you that is 
due this summer, detailing alternative models for the 
Presidential library system. I have our comments, if I could 
submit them for the record later on.
    Mr. Clay. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. White. One of the issues I hate to point out is with 
Congress. Funding is always an issue with everything. But as we 
have seen with some of the Presidential libraries, the FDR 
Library, for example, had horrible conditions, the roof was 
leaking and everything else. We constantly see appropriators 
adding earmarks for particular Presidential libraries that have 
more, how shall we say, politically powerful people behind 
them.
    Mr. Clay. More popularity? [Laughter.]
    Mr. White. More popularity. And it is not the Harry Truman 
Library, by the way.
    Probably the biggest issue, without belaboring the point, 
is declassification. It is endemic, it affects almost 
everything that the Archives does. Without dealing with 
declassification, you are going to have these backlogs. I 
believe when Tom Blanton, who is the executive director of 
Meredith's organization, testified a few years ago before you, 
there was a 5-year backlog. Now it is a 7-year backlog at the 
Reagan Library, if you put in a request for information.
    Now, if you are a historian, or a grad student, even worse, 
and you are working on your dissertation, you can't wait 7 
years to get the documents that you may need, critical 
documents that you need for your dissertation. So from an 
historian's point of view, this is an absolute nightmare, these 
backlogs.
    Again, I will make another pitch for the National 
Declassification Center that was in the report of the Public 
Interest Declassification Board. If you put declassification in 
one place with agency representatives who have expertise in 
declassification for the CIA, Homeland Security, whatever, if 
they are all in one place, it could speed things up.
    So if you ask me to name one, I would say declassification 
was probably the biggest one.
    Mr. Clay. Thank you.
    Anyone else?
    Ms. Fuchs. I will just quickly sort of jump on that. It is 
not just the historians. Sometimes we have fairly current need 
for information that Presidential libraries have. For example, 
the nomination of a Supreme Court Justice who may have worked 
in an administration previously, people want to see those 
records. Or someone who is running for office, to be President 
of the United States, and people want to see those records, 
because they exist.
    And the Presidential Library, it is particularly 
Presidential libraries, because it is such a huge quantity of 
materials being sent to them, they are just not really, they 
don't have the capacity, frankly, to get all that, get through 
it all and get it out in any reasonable amount of time.
    So we think that NARA should be allowed to really focus on 
the records and getting the records out, and they should be 
looking toward new ways of making things available, including 
much more online availability, so they don't need as much 
physical facilities.
    Mr. White. Can I add one thing, Mr. Chairman? I went to the 
budget hearing for NARA the other day before the Appropriations 
Committee. They have taken in 100 terabytes of electronic 
records from the Bush administration. In the Clinton 
administration, they took in 2 terabytes.
    You heard Mr. McHenry talk about a terabyte is millions and 
millions of pages. So you can see how exponentially the 
electronic records are growing. So it makes another need for 
why we need to get the electronic records archive system up and 
running.
    Mr. Clay. I read that one terabyte was equivalent to one 
million books. Now, with this, with the revelation of a 
security breach, even with some of the things that Mr. McHenry 
said in his opening statement, do we have a cultural problem at 
Archives? Have they advanced with the technology that we are 
now faced with in the 21st century? Have they kept up with 
that? Are they prepared to even receive the records of this 
current administration once that ends as far as being able to 
catalog and store it and to be the purveyor of those records? 
Are they prepared for that, or does the new Director have to 
come in and change the entire culture of an agency?
    Mr. White. I think that the Archives has already learned, 
they called for a number of years for a liaison at the White 
House General Counsel's office, somebody dedicated to dealing 
with them on Presidential records. From what I understand, the 
Obama White House has assigned two people to that task, to 
liaison with NARA.
    So dealing with the issues while they are being created 
will make it much easier in 4 or 8 years when President Obama 
leaves office. So dealing with things up front makes things 
much easier on the back end.
    Mr. Clay. Ms. McDermott.
    Ms. McDermott. I think that the Archives itself, my 
impression, and again, this is from outside, is that it is sort 
of the cobbler's children, that they are, and again, this is 
from conversations, that their own recordkeeping, electronic 
recordkeeping, may not be terrific, that when people are 
leaving their offices, they delete their email. And of course, 
the ERA is under development, although as you know from GAO 
reports and your own committee work, that there are problems 
with that.
    So I think there are potentially technology issues within 
NARA in terms of its own ability to manage its own records, 
much less to manage all the rest of the records. And then there 
is a leadership issue in terms of the rest of the Government. 
They do have that responsibility. They don't really want to 
take it, but they do have that throughout the Government, and 
they have to provide leadership in moving the executive branch 
toward electronic records management. That is a big 
technological challenge and a cost.
    Mr. Clay. Thank you for that response.
    Ms. Fuchs. I am happy to add my voice and I will be very 
quick. I do think there is a need for a cultural change. I 
think that NARA has not had cooperation from the executive 
branch. And so there needs to be pressure put on each agency as 
well, that they should be responsible. They need congressional 
backup, and in some instances, they need some more authority 
from Congress, so that they can actually let agencies know, 
they can be more vocal, perhaps, about the problems.
    I think that they need a leader who can manage, and they 
need a leader who can lead. And that may mean they need more 
than one person. So I would sort of support the comment Ms. 
McDermott said that there should be another political appointee 
position.
    And I urge you, when you do have NARA here, to ask them, 
what are they going to do when they get the things from the 
White House at the end of this administration? Do they have any 
idea how to manage those kinds of records? Because that is a 
whole new level of complexity that I don't think we even had in 
the Bush administration that we clearly are going to have in 
the Obama administration.
    Mr. Clay. Thank you so much.
    Mr. Westmoreland, you are recognized.
    Mr. Westmoreland. Thank you.
    President Obama announced this morning that the 
administration will review the classification policies at every 
agency. So from what we just talked about, and hearing what Mr. 
White said, do you think the appropriate evaluator of these 
Freedom of Information requests would be the OGIS or the agency 
that was in possession of the requested material? Each one of 
you can answer.
    Ms. Fuchs. I think in the first instance, we think that the 
one who should be evaluating the classification is the agency 
that classified it. I don't think that we have any problem with 
that.
    When we talk about the National Declassification Center and 
historical records, we do think that the authority of one 
agency to block declassification is a concern. Because we have 
seen that agencies will simply put up road blocks, even when 
they can't convince another agency. Then you wonder why it 
should be classified.
    So I think those are two different categories.
    Mr. Westmoreland. And if they got confused, it could clog 
up the whole system, is that not right?
    Ms. Fuchs. Right, exactly. At the end of the day, the 
President has ultimate authority about whether something should 
be classified or not. The President certainly has the ability 
to declassify records if he chooses to do so.
    Ms. McDermott. I think it is also useful to note that when 
there is a request for a classified piece of information and an 
agency turns it down, an individual or the requestor has a 
choice to go to court or they can go through a process that is 
a mandatory declassification review. Then there is an appeals 
process beyond that, where people from outside of the 
originating agency have a chance to look at the document and 
make some decisions about whether all or portions of it could 
be declassified and released. That is more or less effective.
    But there are processes in place that it doesn't, for 
contemporaneous declassification as opposed to after the 25 
years or that sort of thing, there are processes that have been 
put in place and that are overseen by the Information Security 
Oversight Office that seem to work reasonably well. Although 
they have a tremendous backlog now, too. Everybody needs more 
resources.
    Mr. Westmoreland. Mr. White.
    Mr. White. I hate to go back to always saying it helps on 
the front end. But President Bush issued, I don't know whether 
it was a policy, called Controlled Unclassified Information, 
where he wanted to reduce, there is something like 100 
different ways things can be classified as sensitive. He 
reduced that to three.
    But we are still waiting for, and then he sent out, the 
President sent out a recommendation from different agencies as 
to how to implement this new policy. It still hasn't been 
implemented. We are waiting for the Obama administration to 
issue this new policy. I think that hopefully, having it so 
that things fall into three different stovepipes instead of 100 
different stovepipes, where we have to determine, if one agency 
says this is top secret, it might not mean what top secret 
means at another agency, hopefully down the road will help the 
process.
    Mr. Westmoreland. Do you think the OGIS should be the 
facilitator or the link between those people to where the CIA 
may say, ``this is classified,'' and the State Department says 
it is not?
    Mr. White. I think that is somewhat what their role was 
envisioned as, as being the final arbiter of what goes and what 
doesn't go. Meredith would know more about it.
    Ms. Fuchs. I would disagree. I mean, they are a mediator. 
So what they will be doing is they will be trying to get the 
agency and the FOIA requestor to reach some sort of agreement. 
I think the reason that our community felt it was important to 
have this office was that we found that agencies were 
obstructing requests for information, for poor reasons, not for 
legitimate reasons. And the only alternative you had was to go 
to court.
    Now, my organization, we are happy to go to court. I am a 
lawyer, I can litigate. But you know what? Your average guy on 
the street really doesn't have the ability to go to court, and 
it is not right that they should have to go to court to find 
out something from their Government.
    Mr. Westmoreland. OK, one last question. Somebody said that 
the President set the policy for the declassification of all 
these things. And I guess he is the final person to decide if 
it is declassified or not. And he announced this morning he was 
going to review all these classification policies at every 
agency.
    But from what I am hearing from you, he could make a policy 
that would automatically set the policy for all the agencies. 
Do you suggest that the President do that, rather than going 
through trying to analyze all these classification policies of 
the different agencies? Or just say, OK, this is going to be 
the policy?
    Ms. Fuchs. Right. I think there are two things going on. I 
think every President has issued an Executive order dealing 
with classification policy. Indeed, President Bush's Executive 
order was in many ways very similar to President Clinton's. And 
President Clinton's had an innovation that has been retained 
that I presume President Obama will retain that will declassify 
the historic records. So that, we should assume that President 
Obama will appropriately issue a broad memo.
    The other thing that I believe he talked about today, 
although I don't know the details, is that each agency has to 
have a review of its own policies. Because some agencies do a 
far better job than other agencies. And that goes with respect 
to classifying, also with respect to protecting classified, and 
also with respect to declassifying.
    Some agencies have things built into their system to 
prevent over-classification. People think, why does over-
classification matter? Over-classification matters, because 
people lose respect for the system when everything is 
classified. That is why there are so many leaks, because people 
don't feel that the things that are protected must be 
protected.
    In addition, it costs money, and it obviously prevents the 
public from getting information. So each agency does need a 
review of its own policies.
    Mr. Westmoreland. We just don't want it to be political. 
Just one final comment, and I will quit. But we don't want it 
to be political about what is declassified and what is not. 
Because there are a lot of things going on around Washington 
right now that are he says, she says kinds of deals. So if we 
are going to open it up, let's do it.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    Ms. Watson, you are recognized for 5 minutes.
    Ms. Watson. Thank you so much.
    I understand that NARA has entered into a $317 million 
contract with Lockheed Martin to develop a comprehensive 
management system for electronic records. Do any of you have 
reason to believe that a system like that would be capable of 
adequately processing the massive amount of records in the 
system? Do you know of any existing program for records 
management that the NARA could adapt to function on the scale 
they need? Would you have that information? Dr. Battle is not 
here.
    Ms. McDermott. I don't, personally. I mean, I know what GAO 
has said and the other reports that have come out. But no, I 
think there do seem to be some questions about the capacity, 
capability of the electronic records archive. But I think 
that's probably a subject for a hearing with parties who are 
directly involved.
    Ms. Watson. I am sure this committee will be following up 
with Dr. Battle so we can get the direct information.
    Ms. McDermott. Good.
    Ms. Watson. Do any of the other witnesses have something to 
say?
    Ms. Fuchs. I agree, I can't recommend an alternative 
system. Although a lot of money has been spent already on the 
electronic records archive. So hopefully, rather than scrapping 
it, it can be made to work and work quickly. I believe that 
they are, you would have to talk to NARA but they believe that 
it will work. I would add from our perspective that there are 
other things NARA can do before the records even get to them to 
try to make things be in their proper order and proper formats, 
to make it easier for them to ingest, so they don't have to do 
things like buy proprietary software, so that they can hold 
things before they go into electronic record archives. Things 
like that, that they could be doing. But again, I agree with 
Ms. McDermott.
    Ms. Watson. Well, let me throw this out. I have been 
listening to the three of you. You talk about the time it 
takes. If we are going to declassify information, what are the 
steps, what are the procedures that you have to go through? Why 
would it take years? Can anyone comment on why is the process 
so lengthy?
    Ms. Fuchs. That is a good question, and I ask it regularly 
myself. Every time I have the opportunity to talk to people at 
NARA, I try to find out more about the steps.
    I think some of it is, you mentioned the 400 million pages 
that have been declassified that are waiting to get out to the 
public. Once it has been declassified, that is just one part of 
the analysis. So at least for the historical records, they 
still then have to review them for privacy concerns. And there 
are other processing steps.
    My hope is that having a National Declassification and 
Records Center would facilitate some of that. Certainly part of 
the problem with the classified records is the referral to 
every agency. So a record, the Navy might say it is OK to be 
declassified, but they need the CIA to sign off on that, and 
they need the State Department to sign off on that. What do 
they do? They sort of send it from agency to agency and agency, 
or it sits waiting until someone from that agency comes to take 
a look at it.
    A National Declassification Center would bring all those 
people to the table and they would have to agree to cooperate. 
And I think that would save a lot of time and a lot of money, 
if they approached it that way.
    Mr. White. One of the other challenges of the electronic 
records archive is searchability. When the electronic records 
archive is up and running, if I want to write a biography of 
Chairman Clay and I go in and type, Clay, I am going to get a 
zillion records. How efficient will the system be, so that it 
is searchable and user friendly? That is a big, that will be a 
big, big challenge for the system.
    Ms. Watson. I think the technology exists, if we can put a 
telescope greater than the Hubble, that has to travel millions 
of miles, I think we can do that. I heard time and time again 
that the resources were not there, whatever that means. We know 
it means dollars and people with expertise.
    Mr. White. But it also means expertise, right.
    Ms. Watson. But I think what I am hearing, you are not 
saying it, but I am gathering it, a lot of it is political.
    Ms. McDermott. I don't know if I would say that it is 
political. I think to the extent, if there is a problem with 
the electronic records archive, I think it really has to do 
with NARA's internal capability to oversee somebody like 
Lockheed Martin and an enormous contract of that nature.
    I think in terms of access to Presidential records, I think 
maybe there are sometimes political decisions being made. But I 
think mostly NARA has a very professional staff, very committed 
to making the record open. So I don't think that for the most 
part it is politics, in the way we normally understand it.
    Now, leaking of classified information, that is political.
    Ms. Fuchs. I just want to mention, it might be small 
political, it may not be political, which party wants something 
to happen. But it may be agencies jockeying for position and 
not willing to cooperate and not willing to do what they ought 
to be doing and NARA not being in a position to push them the 
right way.
    Mr. White. And all I would add is any time any Government 
agency buys a new computer system of any size, I just read an 
article the other day about the Copyright Office has this huge 
backlog at the Copyright Office because they put in a new 
system and people can't get their copyrights because it is so 
backlogged. Not to excuse NARA, but I think it happens 
routinely when the Government is procuring big information 
systems.
    Ms. Watson. When we then created Homeland Security, an 
agency that took in 750 different agencies underneath, and I 
thought, oh, my goodness, people come, they had budget 
conflicts, and procedural and steps that are so on that are 
unique, I thought, how are we going to manage this. Right now, 
the reality, after it has been created, is that we need to pull 
some of the agencies out, such as FEMA. But that has nothing to 
do with this.
    But I am thinking of the magnitude of it. Is there anything 
out there that can serve as a model of how we would be able to 
expedite? Do you know if anything?
    Ms. McDermott. I don't know off-hand. I think the only 
place to look would be to some of the big corporations. It is 
possible that at some of the very big law firms that are sort 
of nationwide and have national offices all over, or some very 
big corporations, they are facing many of the same challenges 
that the Government has in terms of managing records.
    Now, ingesting massive volumes of electronic data is really 
probably something that is, if not totally unique, essentially 
unique to the National Archives, in that every 4 or 8 years, 
they get this massive influx of information, which they have to 
process and make available.
    So there may be some models for records management. But in 
terms of this, I really don't know that there would be 
anything. I don't know what other agency really faces this kind 
of problem.
    Ms. Fuchs. I guess I would add, that is one of the reasons 
that we have advocated that NARA's concerns need to be 
addressed at the beginning, at the records creation, as opposed 
to waiting until the other end. Because it makes much more 
sense to build into the information technology that all the 
agencies are putting in place the long-term preservation 
concerns. I think in the long run, that would save money for 
the taxpayers and would certainly make it easier, I think for 
NARA, if things came in in the format that is easiest for them 
to deal with. That is something my organization has stated a 
fair bit, that we think it should be built into all sorts of IT 
funding, the long-term life cycle of the record, including 
ultimate access.
    Ms. Watson. Thank you. I yield back.
    Mr. Clay. Thank you, Ms. Watson.
    Let me ask you, NARA officials have developed a detailed 
10-year strategic plan. Some of you note deficiencies in the 
plan. What must the next Archivist do to make the plan 
operational and effective? We will start with you, Ms. Fuchs. 
Or who wants to start?
    Ms. Fuchs. The plan does address the kinds of things that 
NARA should be addressing. But what I would do is for every 
strategic goal, I would make it into an action item. I feel 
like that is the main deficiency of the plan, is that most of 
the strategic goals are stated in, in my view, passive terms. 
The next Archivist should actually view their job as much more 
of an active position.
    Mr. Clay. And actually have benchmarks.
    Ms. McDermott. Well, they do have performance plans that 
they also post. I don't know if you have read them, but they 
are not terribly informative.
    I agree with Meredith that the strategies are fairly 
passive. For records management, for instance, they say we will 
expand the demand for records management in the Federal 
Government. There is no explanation of what that means. By 
advocating for access to it at senior levels, advocating for 
electronic records management is not the same as providing 
leadership and direction and clear policies.
    So I think they need more concrete steps about what 
specifically they are going to do, not these vague statements 
that most agencies' strategic plans are, that is the language, 
it is vague and it is aspirational, but it is not concrete. So 
I think the next Archivist, if there is a second tier political 
appointee, really needs to take the agency through a serious 
thinking of how they are going to move, not only the agency, 
but the Federal Government, the executive branch forward.
    Mr. White. I would just say that I think the Archivist 
needs to be an agent of change. I think we discussed changing 
the organizational culture. The Archivist needs to be, I think, 
more aggressive in making sure benchmarks are met, not only 
that. And No. 2, working with you up here and with the GAO on 
oversight. Oversight in the end is what makes the train go. And 
having an Archivist in there that is dedicated to aggressively 
meeting the Strategic Plan is very important.
    Mr. Clay. Well, thank you all for your testimony today. If 
there are no further questions, I move that the subcommittee 
adjourn. And the question is on the motion to adjourn. All 
those in favor say aye.
    [Chorus of ayes.]
    Mr. Clay. All those opposed, no. In the opinion of the 
Chair, the ayes have it. And the motion is adopted, and the 
subcommittee stands adjourned. Thank you.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
